<html>
<title> - CONSTRUCTING A GREEN TRANSPORTATION POLICY: TRANSIT MODES AND INFRASTRUCTURE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






     CONSTRUCTING A GREEN TRANSPORTATION POLICY: TRANSIT MODES AND 
                             INFRASTRUCTURE

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 19, 2009

                               __________

                            Serial No. 111-5



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
62-187                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                   Gerard J. Waldron, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared Statement...........................................     3
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. Earl Blumenauer, a Representative in Congress from the State 
  of Oregon, opening statement...................................     6
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     7
Hon. John T. Salazar, a Representative in Congress from the State 
  of Colorado, opening statement.................................     7
    Prepared Statement...........................................     8
Hon. Emanuel Cleaver II, a Representative in Congress from the 
  State of Missouri, opening statement...........................    11

                               Witnesses

                                panel i

Mr. Peter Varga, Chief Executive Officer, Interurban Transit 
  Partnership....................................................    11
    Prepared Statement...........................................    14
    Additional Answers for the Record............................    87
Mr. Andy Clarke, Executive Director, League of American 
  Bicyclists.....................................................    19
    Prepared Statement...........................................    21
Mr. Chris Zimmerman, Board Member, Arlington County Board........    26
    Prepared Statement...........................................    28
Mr. John Boesel, Present and Chief Executive Officer, Calstart...    32
    Prepared Statement...........................................    34

                                panel ii

Ms. Erika Guerra, Manager of Government Affairs and Corporate 
  Responsibility, Holcim (US) Inc................................    52
    Prepared Statement...........................................    55
Mr. Don Weaver, Highway Division Chairman, The Associated General 
  Contractors of America.........................................    63
    Prepared Statement...........................................    65
Mr. Domenic Ruccolo, Senior Vice President, Sales and Marketing, 
  John Deere Construction and Forestry Company...................    72
    Prepared Statement...........................................    75
    Additional Answers for the Record............................    91

                          Submitted Materials

Submitted by Mr. Ruccolo, Joint Statement of CNH America LLC. 
  Caterpillar, Inc. Deere and Company, Submitted to the House 
  Science and Technology Committee Subcommittee on Energy and 
  Environment, Hearing Examining Vehicle Technology Research and 
  Development Programs, March 24, 2009, Subcommittee by Domenic 
  G. Ruccolo.....................................................   101
Submitted by Mr. Ruccolo, Letter from Deere and Company to 
  Honorable Stephen L. Johnson, Administrator, United States 
  Environmental Protection Agency, November 20, 2008, Submitted 
  by Domenic G. Ruccolo..........................................   106
Submitted by Mr. Markey, Statement of the Pavement Preservation 
  Task Force of March 19, 2009...................................   123

 
     CONSTRUCTING A GREEN TRANSPORTATION POLICY: TRANSIT MODES AND 
                             INFRASTRUCTURE

                              ----------                              


                        THURSDAY, MARCH 19, 2009

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 9:38 a.m., in room 
2203 of the Rayburn House Office Building, Hon. Edward Markey 
(Chairman of the Committee) presiding.
    Members present: Representatives Markey, Blumenauer, 
Inslee, Herseth Sandlin, Cleaver, Salazar, Speier, 
Sensenbrenner and Blackburn.
    Staff present: Danielle Baussan.
    The Chairman. Good morning, and welcome to the Select 
Committee on Energy Independence and Global Warming. Today our 
hearing is on a green transportation policy.
    At the end of this year, the Nation's primary 
transportation legislation, the Safe, Accountable, Flexible, 
Efficient Transportation Equity Act: A Legacy for Users, will 
expire. Congressional reauthorization of a surface 
transportation bill will occur at a pivotal time for the 
country, for Congress and for the climate. As Congressional 
leadership and the Obama Administration continue to work 
towards goals of energy independence and fighting climate 
change, transportation's contribution to global warming and the 
potential to improve climate conditions cannot be ignored. This 
is underscored by the 89 percent of Americans who believe that 
transportation investments should support the goal of reducing 
energy use. The U.S. transportation sector is responsible for 
approximately one-third of our country's greenhouse gas 
emissions. About 60 percent of these emissions are from 
passenger vehicles. The United States has 4\1/2\ percent of the 
world's population and 30 percent of the world's automobiles. 
Seventy-seven percent of Americans use a single passenger car 
to commute.
    There are signs that the United States is moving in a new 
direction. Studies show that we are now driving shorter 
distances and taking mass transit in record numbers. 
Transportation legislation should respond to this public demand 
and support mass transit as a way to reduce greenhouse gas 
emissions. Such legislation should also look at all modes of 
transit. This includes the often-overlooked vehicle of our own 
feet. Biking and pedestrian policies are thriving in 
communities large and small, urban and suburban, and as my 
colleague, Mr. Blumenauer, will tell you, sunny and rainy.
    A discussion of climate change legislation and 
transportation reauthorization would be incomplete without 
examining transportation infrastructure policies and practices. 
This includes the materials used in our roads and bridges, the 
machines that move them and the people who build them. 
Transportation emissions don't start at the end of the 
tailpipe. Supporting lower-energy manufacturing procedures and 
recycling for common transit materials can also reduce every 
ounce of CO<INF>2</INF> from the transportation sector along 
with fuel-efficient heavy-duty machinery. Renovating existing 
infrastructure to reflect low-impact design standards improves 
water runoff and can increase air quality.
    Congress must reroute its approach to transportation 
policy. It must be acknowledge the indivisible link between 
transportation and climate change by giving the public choices 
in transit. People should drive because they want to, not 
because there is no sidewalk leading to the train station or 
because the city bus system does not expand into the suburbs. 
By doing this, transportation policy helps meet our President's 
environmental goal to reduce greenhouse gas emissions and put a 
stop to global warming. Congress can compound this 
environmental benefit by supporting low-carbon fuels, vehicle 
efficiency technologies and actions that reduce the emissions 
inherent in our transportation system.
    In a few short months, a climate bill and a transportation 
bill will be presented to Congress. We must make sure that 
these bills reflect the transportation needs of the public and 
the environmental needs of the planet.
    That concludes the opening statement of the chair.
    [The statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. We now turn and recognize the ranking member 
of the Select Committee, the gentleman from Wisconsin, Mr. 
Sensenbrenner.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman. At 
the beginning, let me apologize for leaving after my opening 
statement but the Judiciary Committee is having a hearing on 
ACORN's intimidation of voters and stuffing the ballot box, and 
fair elections, I think, are a capstone of democracy so I will 
be going there.
    President Obama's budget blueprint recently estimated 
climate change revenues, which is taxes by any other name, of 
$646 billion by 2019. While this would represent one of the 
largest new taxes in our country's history, President Obama's 
estimates are likely low. A top White House economic advisor 
recently told Senate staff that the actual revenues could be 
two to three times higher. The global warming tax could reach 
nearly $2 trillion.
    Today we will receive testimony on parts of one sector of 
our economy, transportation, that will come under the new 
regulations and taxes under the Administration's proposal. In 
assessing climate change legislation, I have repeatedly stated 
that there are four principles that I will use to assess it: 
impacts on the economy, environmental improvement, 
international inclusiveness and technological development. 
Today's hearing provides a great opportunity to focus on how 
technology can improve our transportation sector.
    This January I wrote EPA Administrator Lisa Jackson to 
highlight a Duke University study that found that 75 percent of 
respondents misjudged relative fuel savings when efficiency was 
expressed in miles per gallon. By contract, 64 percent 
accurately judged savings when the efficiency was expressed in 
gallons per mile. For example, in over 10,000 miles of driving, 
an improvement from 10 to 20 miles per gallon saves 
substantially more fuel than an improvement from 20 to 40. An 
improvement from 10 to 11 miles per gallon saves nearly as much 
fuel as an improvement from 33 to 50. This means that the 
greatest fuel savings will come from improving the least-
efficient vehicles. Thus, trucks are the low-hanging fruit in 
reducing fuel consumption. Despite this, federal policy has 
focused almost exclusively on promoting hybrid passenger cars. 
According to the Oshkosh Corporation, there are 90,000 refuge 
trucks in the United States, meaning garbage trucks. Replacing 
these trucks with hybrids would result in the same fuel savings 
as replacing 2\1/2\ million passenger cars. Ten thousand hybrid 
trucks would save 7.2 million gallons of diesel each year and 
would reduce emissions by 83,000 tons. This would be like 
taking every car in New York City off the road for 25 days. As 
today's witness, John Boesel, the president and CEO of 
CALSTART, wrote in his testimony, because of their high mileage 
and fuel use, medium- and heavy-duty vehicles alone make up 7 
percent total greenhouse gas emissions.
    To remedy this oversight in federal policy, I have 
introduced the Heavy-Duty Hybrid Truck Research, Development 
and Demonstration Act of 2009. The Hybrid Truck Act is a 
bipartisan bill that will create the federal government's first 
grant program exclusively designed to promote hybrid trucks. 
This bill can help truck manufacturers overcome technological 
hurdles and to reduce the economies of scale. It will result in 
more hybrid trucks, less fuel consumption and lower emissions. 
The hidden tax will be added to our electric bills and into the 
cost of every product we buy and it represents a fundamentally 
different philosophy. While I am advocating a policy that 
spends wisely to simultaneously reduce emissions and spur 
economic activity, the President is advocating a staggering tax 
program that threatens to consumer spending and business.
    I look forward to hearing from today's witnesses to 
identify other areas where federal policy can aid businesses in 
developing the technologies we need to combat climate change, 
and I thank the chair.
    The Chairman. Great. I thank the gentleman.
    I would also like to ask unanimous consent to introduce 
into the record a statement by BASF discussing the importance 
of preserving pavement. Without objection, it will be included.
    The Chairman. The chair recognizes the gentleman from 
Oregon, Mr. Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman.
    I did appreciate what our ranking member said in terms of 
setting the context. There is a lot that we agree with. I hope 
at some point we can persuade him to look at the budget that 
Mr. Obama has suggested to show where the money goes from the 
cap and trade because it is not somehow disappearing into a 
black hole in space but to be made available to reduce the 
problems that average Americans face on an ongoing basis and to 
be able to advance the vision. Much of what he articulated I 
agree with.
    Mr. Chairman, I appreciate deeply your scheduling this 
hearing and being able to deal with an important part of the 
climate change equation and the livability of our communities. 
As you pointed out, we are talking about a third of our 
greenhouse gas emissions. We are talking about where most 
Americans live, work and recreate. We have opportunities here, 
and we will hear it from our witnesses, to be able to tie the 
pieces together in a way that reduces greenhouse gases, that 
inspires new economic activity that provides more choices for 
Americans and leads us to a reduced carbon future. Despite some 
of the political posturing we have heard, I do believe at the 
end of the day we are going to find that there is a very 
significant consensus that is emerging with the American 
public, with people in business, labor, environment, the 
professions, because there are opportunities and there is lots 
of low-hanging fruit. Indeed, we will hear today about some 
things just talking about picking fruit up off the ground and 
they have in many cases multiple benefits in terms of improving 
health to the individual, new economic activities, not just 
saving the planet. I look forward to hearing from our 
witnesses, Mr. Chairman, and to be able to explore with you the 
big picture where we are looking at technology, economic 
development, strengthening the communities, solving multiple 
problems simultaneously. I am pleased that the President's 
budget blueprint provides an opportunity to finance it, to be 
able to encourage it and to be able at the same time to provide 
support for businesses and American families in a way that they 
will actually be better off not suffering from the consequences 
of carbon pollution and climate change.
    Thank you, sir.
    The Chairman. I thank the gentleman.
    The chair recognizes the gentlelady from Tennessee, Ms. 
Blackburn.
    Ms. Blackburn. Thank you, Mr. Chairman, and I want to 
welcome our witnesses. I also, as Mr. Sensenbrenner had 
mentioned, have to step out. I am going to have to step 
downstairs to see our air conditioning and heating 
manufacturers that are in a meeting down there on some similar 
subjects and then come back to join you, but I want to thank 
you for the hearing and I do want to welcome all of you.
    As you can hear on this panel, we will disagree about the 
issue of global warming and climate change and the science that 
is involved there, but one of the things I think that we all 
agree on is that traffic congestion is a problem and that this 
is something that does need to be addressed, and I would say, I 
am one of those that says there is plenty that could be done 
and should be done other than investing billions of dollars in 
a high-speed rail from Los Angeles to Las Vegas but there are 
other ways, low-cost ways to address the situation. There was a 
study by the Texas Transportation Institute that included some 
really commonsense approaches to this issue, freeway ramp 
metering, traffic signal coordination, incident management, 
high-occupancy toll lanes. Taken together, these measures would 
reduce hundreds of millions of traffic hours, save billions of 
gallons of gas and eliminate thousands of tons of emissions, 
all of which are important to us.
    So I think that investing highway money to correct 
inadequate bridges and increase road capacity coupled with a 
few simple improvements would significantly reduce emissions, 
reduce fuel wasted and traffic congestion and move us in a more 
commonsense approach along the way to solving the problem.
    With that, I will yield back the balance of my time and 
look forward to the testimony. Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady.
    The chair recognizes the gentleman from Colorado, Mr. 
Salazar.
    Mr. Salazar. Thank you, Mr. Chairman, and I will submit my 
full statement for the record, but I just wanted to briefly let 
the panel know that I am very interested in energy independence 
and trying to figure out where we go from here. I would like 
you to address the argument that a lot of people talk about, 
whether we should do maybe a carbon tax instead of a cap-and-
trade system, if you would, but I also wanted to commend the 
second panel, John Deere. I am a farmer by trade, I run nothing 
but green tractors, and I want to commend you for your fuel 
efficiency efforts in that respect.
    So thank you very much, Mr. Chairman. I yield back.
    [The statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Great. Let me thank the gentleman.
    The chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman. I have an abbreviated 
statement.
    I think we are at an unusual moment, and if you deny global 
warming, that is fine. We are the only people on the planet 
with a sizable group still saying that there is no climate 
change, but we do have an unusual moment here and nobody can 
argue that putting CO<INF>2</INF> in the atmosphere is good no 
matter what you believe. That just can't be good. I am trying 
to find somebody who thinks that we need to suck it up. It is 
not a good thing.
    But some good things are happening. We are at a 52-year 
high with transit ridership, and I think that is a good thing. 
It was brought by two things: One, when we had the tremendous 
rise in the price of a barrel of oil, which ran gasoline prices 
up, and then the economy going down, people not able to buy new 
cars and so they go to transit. And so what I think we have got 
to do is figure out a way to create the most ecologically and 
environmentally sensitive system of mass transportation on the 
planet. Any nation who has a system superior to ours creates 
embarrassment to us, and so I am interested in hearing your 
ideas and suggestions and look forward to your comments.
    I yield back the balance of my time.
    The Chairman. Great. The gentleman's time has expired, and 
now we will move to our very distinguished witnesses, and our 
first witness this morning is Mr. Peter Varga, who is the CEO 
of the Interurban Transit Partnership. He is in charge of 
operating the urban transit system in Grand Rapids, Michigan 
called The Rapid. Grand Rapids has become a leader in green 
buildings, mass transit and other environmental initiatives. 
Mr. Varga previously worked in transit management and safety in 
Muskegon, Michigan, and Santa Cruz, California. We welcome you, 
sir.

STATEMENTS OF PETER VARGA, CEO, INTERURBAN TRANSIT PARTNERSHIP; 
ANDY CLARKE, EXECUTIVE DIRECTOR, LEAGUE OF AMERICAN BICYCLISTS; 
CHRIS ZIMMERMAN, BOARD MEMBER, ARLINGTON COUNTY BOARD; AND JOHN 
              BOESEL, PRESIDENT AND CEO, CALSTART

                    STATEMENT OF PETER VARGA

    Mr. Varga. Good morning. Thank you, Chairman Markey and 
members of the Select Committee. This is really a great 
opportunity for me.
    We are a transit system that is quite successful in the 
United States and growing and I think that is one of the 
reasons why I am here because I want to talk about how you can 
achieve 10 percent growth in transit, double the ridership in a 
decade. We started the Authority about nine years ago. We have 
expanded services over time and in fact, we are now 
transporting 9.1 million trips a year and that is double of the 
ridership that we had a decade ago.
    The Grand Rapids region is quite well known for its 
greening efforts and its green transportation. We are part of a 
community sustainability partnership with cities, with 
businesspeople and with universities. Eighteen percent of all 
LEED projects in the United States come from Grand Rapids metro 
region. We have the first rectory, the first church, the first 
public museum, the first LEED-certified hospital and we at The 
Rapid created the first LEED-certified public transit building 
in the United States. We never anticipated being first but we 
ended up being first, and being first, you can never change 
that so we tried to herald it.
    We are very well known for our sustainable practices. In my 
testimony, I talk to your about central station project, which 
is LEED. We are going to start using the American Recovery and 
Reinvestment Act to expand our wealthy operations center, our 
maintenance facility, and it is intended to be a LEED facility 
as well. And because of our leadership in public transportation 
sustainable practices, we are designated by the Sierra Club in 
2008 as a Cool City along with Denver and Minneapolis.
    In my testimony I give you several examples of public 
environmental benefits of a public transit system but I wanted 
to highlight one thing. Currently, there are more than 10 
billion trips taken yearly on public transportation. With each 
additional billion trips taken, oil consumption can be reduced 
by 420 million gallons and our carbon footprint reduced by 3.7 
million metric tons. Let us assume the 10 percent growth we 
have done in Grand Rapids in public transportation trips. The 
United States could save 141.9 million metric tons of carbon 
emissions annually equal to 8 percent of total carbon emissions 
from transportation and also save 15.2 billion gallons of fuel 
per year. I don't know how we get from the Persian Gulf but if 
it equals that, that would be worth it, wouldn't it?
    I have also put in some more statistics and information in 
my testimony talking about how individual actions impact the 
environment and how we can reduce carbon footprint. I am not 
going to go through them but I really wanted to talk to you 
about investment in public transit. With an average return of 
6.1 percent in investment, we could create millions of American 
jobs, generate enormous public and private revenue and make the 
country more economically and environmentally efficient. At a 
time when our country has been calling for stimulus, sustaining 
a 5.5 percent growth in public transportation would support 5.3 
million jobs and a 10 percent growth could support 8.9 million 
jobs.
    So one of the things I did want to talk to you about is, I 
have in my testimony how Grand Rapids specifically has 
benefited from its public transit system. The highlights I 
would like to say is, we are starting to do a BRT project under 
Very Small Starts. We have completed a streetcar feasibility 
study that shows that it is feasible in the downtown area and 
we are trying to create a public-private partnership to develop 
it because currently under the New Starts program we are 
incapable of actually pushing streetcars forward. We have 
significantly improved transit services in the last decade and 
we doubled our ridership, as I said. The importance of this is 
that I do believe that the United States can double its 
ridership as well with the right kind of public investment. The 
primary reason why I am here today is to give you the how can 
Congress support local and regional public transit. You could 
increase the availability of funds for fixed projects like our 
proposed bus rapid transit project and others like light rail, 
commuter rail and streetcar. You can make available for funds 
for nonmotorized auctions such as walking and bicycling. You 
can reduce the transportation cost for Americans through 
investment of----
    The Chairman. If you could summarize, please?
    Mr. Varga. I will sum it. Sorry. In sum, I have indicated 
in my testimony that there are several ways that federal 
climate and transportation legislation can effect positive 
change and I encourage you to take each one of those measures 
that I have outlined and implement them because we don't have 
enough time as we are trying to save the earth.
    [Statement of Mr. Varga follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you, Mr. Varga, very much.
    I am going to allow the leading bicyclist advocate in the 
Congress to introduce our next witness.
    Mr. Blumenauer. I wouldn't say that where Mr. Oberstar 
could hear you, but thank you, Mr. Chairman.
    It is a pleasure today to have Andy Clarke. Andy is the 
executive director of the League of American Bicyclists. Last 
week he just hosted people from 47 States, several foreign 
countries, over 600 advocates who were in and around the Hill 
sporting our trademark bicycle pin. I first had an opportunity 
to become acquainted with Mr. Clarke when he was advising the 
Federal Highway Administration's Pedestrian and Bicycle 
Information Center. He is a tireless advocate, extraordinarily 
knowledgeable, and we are lucky to have him here today. 
Welcome.

                    STATEMENT OF ANDY CLARKE

    Mr. Clarke. Thank you, Mr. Chairman, thank you, Mr. 
Blumenauer and members of the committee for the opportunity to 
testify before you this morning on the important role that 
bicycling can play in reducing oil dependence and global 
warming.
    Let me return the favor and acknowledge and thank 
Congressman Blumenauer for his leadership on bicycling and 
livable communities issues for passage last year of the bicycle 
commuter tax provision and for your leadership of the 
Congressional Bike Caucus, which I believe now boasts a 
majority of House members.
    Last week as you kicked off our 9th National Bike Summit, 
we heard from the head of Copenhagen's bicycle program. Thirty-
six percent of trips are made by bicycle in this northern tier 
city of 1 million people. Copenhagen is hosting the next round 
of climate change talks in December and we hope delegates from 
all over the world will see firsthand how a world-class city 
thrives with bicycling at its core. Our summit participants 
were obviously wired by the sheer numbers of cyclists and the 
infrastructure that accommodates them yet the one critical 
lesson we learned is that Copenhagen was not always a bicycling 
paradise. In the 1970s their city streets, their squares, their 
public spaces were overrun with cars. They chose a different 
path and have seen bicycle use increase dramatically and now 
have their sights set on a 50 percent mode share for bicycling 
by 2015.
    Of course, there is a big difference between Copenhagen and 
U.S. cities. I mention it because they are actually changing 
people's behavior and I think that is the key. Bicycling is 
perhaps the ultimate zero-emission transport mode. We all know 
that getting more people to ride or walk instead of driving 
will help reduce emissions. The question is, will they actually 
do it. We have the answer here in the United States in many of 
our bicycle-friendly communities. For example, since 1991 
Portland, Oregon, has seen a 490 percent increase in bicycle 
traffic as their bikeway network has grown from 60 miles to 280 
miles. In practical terms, that means that more than 16,000 
cyclists now cross Portland's downtown bridges every day 
instead of 2,500 in 1991. A green dividend has been calculated 
for Portland's integrated transport investment. The average 
Portlander drivers 4 miles less per day than the national 
average, saving 2.9 billion miles of vehicle travel and keeping 
more than $1 billion in the pockets of Portland residents. 
Other cities that I document in my testimony such as New York, 
San Francisco, Cambridge, Minneapolis and Washington, D.C., 
have seen phenomenal bicycle mode share increases in recent 
years because of the policies, programs and funding they have 
invested to improve conditions for bicyclists.
    So how can the federal government support bicycle travel? 
Climate change legislation and the next transportation bill 
will direct hundreds of billions of dollars to transportation 
projects and it is essential that a significant percentage of 
that investment completes bicycling, walking and transit 
systems in our cities. A recent survey by the National 
Association of Realtors found that close to 90 percent of 
Americans agree with that approach. We must have a national 
complete streets policy to ensure that all those funds improve 
the safety and convenience of bicyclists, pedestrians, people 
with disabilities, transit users and yes, even motorists.
    On that point, let me reiterate that bicycling, walking and 
transit rise and fall together. I am not pleading a special-
interest case today for bicycle enthusiasts. I am suggesting 
that livable, sustainable communities are built on the ability 
of people to walk, ride a bike and take transit for many of 
their daily needs and that motorists and urban freight 
providers will benefit from having fewer cars on the road. 
Equally, I am not suggesting that everyone suddenly become a 
60-mile round-trip Lycra-clad bicycle commuter. Our focus must 
be on the 40 percent of trips in this country that are just 2 
miles or less. Ninety percent of those trips are today made by 
car. Those are the most polluting trips. These are the trips we 
must make easy and convenient to be made by bike. This is where 
the greatest potential lies to reduce climate emissions in the 
years ahead.
    Today's focus is obviously on climate change and oil use 
and we support a greater emphasis on transit, more fuel-
efficient vehicles and hybrids, but I would be remiss if I did 
not remind the committee as my colleague, Congressman 
Blumenauer, has done, that when you encourage bicycling and 
walking, you also help address the health, physical activity, 
air quality, congestion and economic challenges faced by 
individuals, communities and our Nation.
    So thank you, and I would be happy to answer any questions.
    [Statement of Mr. Clarke follows:] 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you, Mr. Clarke, very much.
    Our next witness is Chris Zimmerman. He is a member of the 
Arlington County Board in Arlington, Virginia. He serves on the 
board of directors of the Washington Metropolitan Area Transit 
Authority. We welcome you, sir.

                  STATEMENT OF CHRIS ZIMMERMAN

    Mr. Zimmerman. Thank you, Mr. Chairman, members of the 
committee. Good morning and thank you for inviting me. I have 
submitted a statement for the record. I think to make best use 
of your time, I will just sum up a few of the things and will 
be happy to answer any questions at the conclusion of the 
statements.
    Let me say first, Arlington, Virginia, right here across 
the river is a community with a legacy of what is now called 
smart growth, although when my predecessors started it, they 
didn't have that word, and it wasn't so described, but in 2002 
when the EPA gave out the first award for smart growth, the 
first award for rural excellence was given to Arlington for the 
success in planning and implementing the Roslyn-Boston metro 
corridor, which has now become kind of a laboratory or 
something people are coming to study to see what you can do in 
what was not previously a real urban area but was kind of a 
declining suburb and has been revitalized as a result of the 
last generation and has now demonstrated that there is 
tremendous potential in a fairly high-income growing area to 
move people to alternative transportation, to reduce both car 
ownership and car usage and vehicle miles traveled to eliminate 
drive-only trips and single car occupancy at an impressive rate 
and to do that by choice because people are opting to live 
there. In fact, they have to pay a premium that has become 
actually our biggest concern. But we have also seen at a 
county-wide level not only in the areas where we have the 
tremendous investment represented by metro rail that it is 
possible to get more a transit-oriented, pedestrian-oriented 
lifestyle and that people want it. So throughout our country we 
have been approaching this in a similar fashion. We are a small 
jurisdiction geographically. We have 200,000 people but we are 
only 26 square miles, so we are comparatively dense. Our metro 
corridors are only about 10 percent of the land area of the 
county and that is where we have concentrated most of this 
development, but even in the other areas we are using things 
like better bus service, extensive bicycle network. We have 
been implementing bike lanes on street as well as bike trails, 
improving our sidewalk network. We have a complete streets 
approach that was described by the preceding speaker that has 
made it easier for people to get around and in fact people are 
choosing more and more to walk, to ride bicycle and so on. Just 
to give you a rough idea, between 1996 and 2008, our county 
added 13,000 housing units, over 1,300 hotel rooms, 5\1/2\ 
million square feet of office space, 1.3 million square feet of 
retail, over 23,000 residents and 11,000 workers. During that 
same period traffic trends were basically flat and transit 
ridership grew by 44 percent.
    There are many other ways you can measure this. Just to 
give you one example, if you simply look at who drives alone, 
you know, how people get to work basically, if you look at how 
people get to work in the Washington metropolitan region, about 
three-quarters or so drive alone. Under the most recent survey 
we have, which was 2006 before the big run-up of gas prices, a 
majority of our residents do not drive alone to work. Only 47 
percent of them do that. That is county-wide, not just the 
metro corridors, whereas more than a quarter of them take the 
train, 12 percent take the bus, 6 percent walk, 3 percent bike. 
All those numbers are up since just 2000. In just the course of 
this decade we have been able to move more and more people. 
Again, they are doing it because they choose to do it because 
we have made it attractive and increasingly it is what people 
tell us they want to do.
    I will say that the approach we have had is a comprehensive 
one. It centers first on land use and key decisions that have 
been made over the years in integrating transportation, but it 
includes other components as well including a commitment to 
alternative fuels, which we have, for instance, in our bus 
system, which are CNG, to a green building policy. We had the 
first green building policy in this region going back 10 years 
ago now when not a lot of people knew what LEED was, and we 
have approached it in little ways too with things like car 
sharing. We have car sharing available. I should say we 
somewhat copied Portland. We straight out stole your orange 
poles that you put on the street there. That seemed like a good 
idea. And so we have zip cars now, we have flex cars, and we 
will invite any provider at every one of our metro stations and 
in other places so that many Arlingtonians make that their 
second car, including my family, instead of owning two cars. 
You know, you don't need to pay the insurance on it but you 
have the second car when you need it. So there are a lot of 
little things you can do. We have a comprehensive 
transportation demand management policy that relates to all new 
development that promotes transit use, whether it is people 
working in an office building or multi-family residential, and 
I could go on but obviously time is limited.
    Let me finally just say that I think there are a number of 
things the federal government could do that would be more 
helpful for this kind of policy including making transit 
investments easier. Obviously we could use more funding but it 
is also what you have to go through to get the funding and I 
will mention that outside of metro corridors one of the things 
we are trying to do is implement a streetcar like Portland's, 
and there are many obstacles by the current state of federal 
policy.
    Thank you, Mr. Chairman.
    [Statement of Mr. Zimmerman follows:] 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you, Mr. Zimmerman. Just so you know, 
Mr. Zimmerman, all the times that you mentioned Portland, this 
hearing is Mr. Blumenauer's idea so one more idea we have to 
run up the flagpole.
    Our final witness is Mr. John Boesel, who is the president 
and CEO of CALSTART, which is a nonprofit organization based in 
California that works with public and private sectors to 
develop advanced transportation technologies. We welcome you, 
sir.



                    STATEMENT OF JOHN BOESEL

    Mr. Boesel. Thank you very much. I very much appreciate 
this opportunity today. My organization has been working to 
develop clean truck technology for the last 15 years. We are a 
fuel- and technology-neutral organization so we work with 
companies working on biofuels, natural gas, hybrid fuel cells, 
et cetera. While we are regional sounding in name, we are 
actually in this space working nationally. We have an office in 
Denver, and our chairman is Fred Hansen, the general manager of 
Trimet in Portland.
    What is possible from the clean truck sector? I think the 
California AB-32 climate change goals are possible relative to 
this sector, meaning a 20 percent reduction below 1990 levels 
by 2020 and 80 percent below 1990 levels by 2050. I am a 
technology optimist. I do believe it is possible. Next slide, 
please. Actually the next slide after that.
    [Slide.]
    We have two key technologies that I think are ready and 
available to go today, our hybrid trucks. We have got a variety 
of different technologies, plug-in, hybrid electric and 
hydraulic hybrid. All are viable. These are U.S. companies 
producing these core technologies. We also have now three major 
manufacturers that are producing natural gas trucks and I think 
those are also ready to go and show a way to reduce our 
dependence on oil. Next slide, please.
    [Slide.]
    A key for natural gas, a key fuel that we ought to just be 
developing right away and doing what the Swedes are doing very 
effectively is biomethane. It is taking biomaterial, putting it 
in a digester, letting it cook for about 3 weeks, cleaning it 
up and putting it into the pipeline or directly into vehicles. 
The Swedes are doing this very effectively and they are in 
compliance with the Kyoto Accord and it is something that is 
there, low tech, ready to go. We should be doing it. Next 
slide.
    [Slide.]
    And this slide just shows that the potential between 
biofuels and hybrids is something we really ought to take 
advantage of. Florida Power and Light has taken one of our 
hybrid trucks, is running biodiesel-30 on it, and this truck 
today is getting a 70 percent reduction or displacement of oil 
between the hybrid technology and the biodiesel. So it is 
something that is here and ready to go. I think there should be 
continued support of both bio and renewable diesel as well as 
investment in the next generation, green diesel technology, 
which companies like UOP and Amerus are developing. Next slide, 
please.
    [Slide.]
    I think there are going to be niche opportunities for pure 
electric trucks. FedEx is deploying these delivery vans in 
London, and I would say that one reason that they are doing it 
is because of the congestion pricing policy in London has 
reduced the cost of these trucks in the London area. Next 
slide, please.
    [Slide.]
    I would say that--let me just make a few more comments on 
technologies. Other viable approaches are fuel cells and 
hydrogen. I think they are a little more of the R&D phase and 
need additional investment in that area, and I would say that 
the Federal Transit Administration has done a very good job of 
helping develop that technology in buses. There is a very good 
robust program in the last T bill and hopefully there will be a 
low-carbon-bus R&D program in the next T bill. There are also 
opportunities to advance the core diesel technology. There is 
waste heat recovery, lighter weight materials, lots of 
different approaches that we can use to make even basic diesel 
technologies more viable and more efficient.
    In summary, I just want to hit on some key policy 
recommendations. First of all, I think the high price of oil 
that we saw last year was the mother of all policies. It really 
helped drive efficiency and improve the business case for all 
the alternatives. It is clearly something in Europe and Japan 
they have figured out how to send a consistent price signal at 
the pump. On cap and trade, Congressman Salazar, to answer your 
question, we do not see this having a material impact on demand 
in the transportation sector. The price of carbon that we see 
coming out of cap and trade would not significantly affect the 
price at the pump, so we might see a 20- or 30-cent price 
increase as a result of cap and trade but we don't think it 
will materially impact demand. However, if there are auction 
allowances we would certainly hope that they could be used for 
transportation measures.
    In the absence of a high price signal, I do think a new 
energy bill that would extend the existing tax credits for 
alternative fuel trucks and hybrid trucks is very important. On 
page 6 of my written testimony, we have laid out specific 
rebates that ought to be provided for hybrid trucks based on 
the amount of battery capabilities of each truck.
    And then lastly, I just want to thank the U.S. Army and the 
Department of Energy and EPA for their programs in this area 
and hopefully we can have an integrated approach going forward.
    One last point is that I think T. Boone Pickens has done a 
good job of helping to educate the Nation about the economic 
problems associated with importing oil each year. Depending on 
the price of oil, that price tag goes from $250 billion to $750 
billion a year. We simply cannot keep affording that. We have 
got consumer debt that is out of control. We have got budget 
deficits that are out of control and our trade deficit, and 
imported oil is a huge portion of that problem and it is time 
to really address it. Thank you very much.
    [Statement of Mr. Boesel follows:] 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you, Mr. Boesel, very much.
    Let me recognize the gentleman from Oregon, Mr. Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman, for your courtesy 
and for scheduling this hearing.
    I am struck, Mr. Boesel, just talking about nuts-and-bolts 
things that are possible right now that are within the window 
of economic feasibility and with a little nudge might blossom 
to make a huge difference, and our ranking member did talk 
about the potential with trucking and we look forward to 
working with you on those elements.
    I have two questions that I would like to put to the panel. 
One just deals with where my friend, the ranking member, left 
off. He talked about the pool of money that could potentially 
be generated, two thirds of a trillion dollars, perhaps double 
that, but then ignores what happens with the money. The 
President envisions that significant amounts of money would be 
available to further incent energy efficiency, be available for 
rebates for families to cope with challenges and to be invested 
in other ways, and I just wonder if you could briefly touch on 
ways that the money that may potentially be generated could be 
spent in a way that could reduce the carbon footprint. For 
instance, Mr. Zimmerman, you talked about struggling with FTA 
to try and get them to just administer existing laws so you can 
build streetcars and other things but what difference, what 
could you do with those resources to build on the admirable 
record of success that you have?
    Mr. Zimmerman. Congressman, we would have a long list, but, 
you know, to start, things like implementing obviously a 
streetcar is an example where a comparatively small investment 
can yield tremendous results in promoting not just transit use 
but the compact development pattern that you need that is 
really key to ultimately reducing greenhouse gas emissions, and 
the kind of smaller investments you can make--we did a transit 
center, for instance, for a few million dollars, much of which 
in fact was federal grant money through the CMAC program which 
provided a transit nub in a place called Shirlington which is 
actually right off a major highway, which is an example of a 
compact development where you don't have big, you know--you 
don't have a train but we are able in the area of about a 
quarter of a cloverleaf to pack in a community that is very 
desirable. People want to go to visit. There are now people 
living there, working there, restaurants, and we have a transit 
center that gets about 400 buses a day and carries several 
thousand people. That was a comparatively small investment, 
which, you know, a federal grant helped make possible. There 
are all kinds of things like that you can do, and again, I 
would stress also not just the money but how do you remove the 
obstacles that make it so difficult to get that you say well, 
for a few million dollars am I going to hold up my project for 
years in process. That is a tough question for us.
    Mr. Blumenauer. We want to come back to you in terms of 
reauthorization. I want to just touch briefly with our other 
panelists, Mr. Clarke, Mr. Varga. There is nobody that puts a 
gun to the head of the people in Arlington or Grand Rapids that 
forces them on transit, forces them to walk to work, to 
bicycle. You have referenced in several ways the choices, 
making the choices more attractive so that people can take 
advantage of them. Would you like to elaborate on that for a 
moment, Mr. Clarke, in terms of choice for our citizens?
    Mr. Clarke. Thank you. We often hear that one of the 
biggest challenges facing getting more people riding is 
Americans' love affair with their cars. I believe Americans 
have a love affair with their quickest, cheapest, most 
convenient way of getting around, which we have done a very 
good job of making driving recently. A soon-to-be-published 
report comparing the U.S. and German transport policies shows 
that Germans, who love their cars and fast cars as much as 
anyone, have a 41 percent mode share for biking, walking and 
transit. They have the choices, they have the options and they 
choose the easiest and most convenient way of getting around. 
In Copenhagen, again, the speaker at the National Bike Summit 
said that is the reason why Copenhagers ride their bikes. It is 
not because they are big environmentalists, it is not because 
it is in their genes, it is because cycling is the easiest, 
quickest, most convenient way of getting around. So I think 
that is part of the trick and to refer back to your last 
question, I took the precaution of talking to Roger Geller at 
the city of Portland yesterday and he says that for about the 
equivalent cost of 800 feet of the I-5 Columbia River Bridge 
replacement project, they could effect a Copenhagen-style 
transformation of Portland and achieve a significant mode shift 
and mode change over a 15- to 20-year period. That seems to me 
a wise and sensible use of resources that are there.
    Mr. Blumenauer. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman's time is expired. The chair 
recognizes the gentleman from Colorado, Mr. Salazar.
    Mr. Salazar. Thank you, Mr. Chairman.
    I want to get back to my opening statement because the--
could you address the argument of should we just put a carbon 
tax on this and utilize that money to develop new greener 
technologies and things like that or should we do the cap and 
trade? Any of you can answer.
    Mr. Varga. If I can address this, you should do anything 
you can whether it is cap and trade or a carbon tax or taxing 
vehicle miles traveled to get 250,000 cars off the road daily. 
Only 54 percent of people have access to public transit. You 
need to shift that so you need to use some of those revenues 
from those sources to deal with the problems rather than the 
current revenues that are available to increase public 
transportation. So I would encourage all of you to look at 
different kind of climate change legislation that uses those 
mechanisms to fund these alternative sources of transportation.
    Mr. Salazar. Which one would you prefer? I mean, a simple 
carbon tax on emissions or----
    Mr. Varga. To me, a simple carbon tax and an assessment on 
vehicle miles traveled, a combination of those things so you 
reduce also the vehicle miles traveled.
    Mr. Salazar. Anybody else?
    Mr. Zimmerman. Honestly, I think that any of these 
approaches would help in almost any combination. Essentially 
what Mr. Varga said is the most important thing, that you have 
to make the incentives reflect the policy goals and I think you 
have to make the price to be paid reflect the social cost, and, 
you know, anything from raising the gas tax, you know, which 
would help a lot, or something more sophisticated like a 
vehicle miles traveled tax, which in some ways would be better 
but harder to do, but really I think any of these things would 
be better than where we have been and, you know, it is going to 
be a matter obviously of what you can make work on, you know, 
many of the levels. I wouldn't know how it would pick--in terms 
of how it affects me at the local level, any of these things I 
think would be helpful in getting the right outcomes.
    Mr. Salazar. Anyone else?
    Mr. Clarke. I must say, we as an organization don't have a 
particular preference. We do know that as gas hit $4 a gallon 
last year, our phones were ringing off the hook. Our events 
were going crazy. In the Denver metro area, for example, their 
Bike to Work Day grew from a steady 15,000 people a year to 
over 25,000, almost 25,000 people because people were focused 
on the price point, and clearly the price of gas and is a big 
issue as to how people choose to travel. So whether that is the 
right mechanism, we don't really have a horse in the race, 
whether it is cap and trade, whether it is a carbon tax, but 
the price of carbon certainly needs to be raised so we can pay 
for any of these alternatives.
    Mr. Salazar. Mr. Boesel.
    Mr. Boesel. I would just say that in general I don't know 
that a carbon tax is going to generate a higher price at the 
pump than cap-and-trade program would. I think they end up--
when you see the proposals, they end up sort of having the same 
net impact. So in terms of demand, I don't know that there is a 
huge difference. I do think it is critical, you know, how the 
revenues get spent. I want to applaud Mr. Sensenbrenner for his 
bill talking about the need for additional funding for hybrid 
truck R&D. We have got to find a way to fund projects like 
that. And so I think that is critical. I will say that in 
California there is a proposal being put forth to a commission 
that is looking at how to revamp the State's funding system, 
and one of those is that there be a surcharge on gasoline and 
diesel, recognizing that a cap-and-trade program would not have 
a big impact.
    Mr. Salazar. And briefly, Mr. Boesel, you talked about 
innovative technologies to create more efficiency, I believe, 
in some of the work you are doing. Are you aware of Sterman 
Industries in Colorado that uses an Apollo space mission 
technology that has been able to increase internal combustion 
engine efficiencies by as much as 40 percent?
    Mr. Boesel. We are quite aware of that very impressive 
firm, Mr. Salazar. I think they have got some very interesting 
technology, and they are one of the reasons why I am an 
optimist about what can be done to really cut oil use and 
carbon emissions from the truck sector because there are 
technical solutions out there. We just need the right kind of 
policies that encourage that they be used, and I am afraid that 
$2-a-gallon gasoline doesn't really do that.
    Mr. Salazar. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The chair recognizes the gentlelady from California, Ms. 
Speier.
    Ms. Speier. Thank you, Mr. Chairman, and thank you to all 
the panelists.
    You know, I am struck by the statement I heard earlier 
today that Americans love their cars fast, heavy and big, which 
is all very true, and, you know, in California, where I am 
from, we are all very sensitive to the environment being energy 
efficient. We have got the AB-32 law on the books. But I go to 
my local dealerships and they tell me that overnight the 
popularity of hybrids dropped like a rock and the big, heavy 
SUVs were once again popular. We are trying to direct Detroit 
to build cleaner, more-energy-efficient cars and yet it is all 
about supply and demand, and how do we address that?
    Mr. Zimmerman. I will start. You know, I think again that 
it is a matter of what we are incentivizing. I think while 
there is undoubtedly some truth to the statement that this is 
what people want, I think that is overstated because we have 
essentially been subsidizing automobiles and penalizing other 
things. If you create communities in which the only way to get 
a quart of milk is to get in your car, then obviously you are 
going to create great preference in driving, especially for 
anybody who needs to be able to get a quart of milk. On the 
other hand, I think the evidence indicates when you look 
particularly at what has been happening in real estate over a 
period of time, people are opting for other things. They are 
paying a premium. You know, the biggest criticism that we get 
of my community is gee, it is too expensive, everybody would 
like to live there but, you know, that is telling you 
something. We don't have enough competition in this kind of 
thing.
    Similarly, just on, you know, the straight-up question of 
cars versus other things, if we are making automobile travel 
easier because parking is free everywhere but you have to pay 
to ride transit, well, you know, you are clearly giving 
disadvantage. So I think that the overall incentive structure 
will have a big impact and I think that that is implicit in the 
point you were making that we saw a tremendous change in market 
demand based on a fluctuation in a short period of time in the 
price of fuel, so stabilizing the price of fuel at a more 
realistic level, which would frankly be higher, reflecting the 
other impacts of its consumption, would go a long way, I think, 
to generating the right demand and allowing both manufacturers 
to know not only of automobiles but of other products to know 
that it made sense to invest in them and bring the return and 
over time, you know, I think you are going to see the behavior 
change as well, and again, I don't know the best way to do 
that. If all you did was tax gasoline at a more sensible level 
and stabilize the price at a higher level, you would have 
tremendous effect on many of these other things we have worked 
too. Some of them might work better. But somehow you need a 
policy that does that. Otherwise I think we continue to get 
into this fluctuation that you were describing, and the 
complaint from people trying to do either policy at the local 
level or manufacturing goods saying, you know, I can't count on 
what is going to happen next.
    Mr. Varga. What I would like to say is that you should 
really incentivize public transportation, bicycling, walking 
versus using your car where you are putting your investment. If 
you are putting your investment into making it easier for 
people to buy cars, use cars, then you are not creating the 
kind of land-use patterns that really help people move to 
communities where they can walk easily, take a bicycle, live in 
a neighborhood, use public transit, get rid of their car. It 
takes an adjustment. It took me an adjustment to get used to my 
hybrid car, you know, and we have to think about what is 
important. What is important is to save the earth. I mean, 
there were two shows last night that talked about global 
warming like we are still debating it yet we are dumping sand 
on the beaches nearby here because the sand is being eroded 
because of global warming. We are spending money the wrong way. 
We should be spending our money incentivizing a change in 
behavior and you have to change behavior.
    Mr. Boesel. Maybe just to add to that and say that I do 
think that the way we do our planning can really be improved, 
and in California there has been new legislation passed, S.B. 
375, that will require metropolitan planning organizations to 
help come up with sort of a carbon footprint analysis and plan 
to reduce emissions in vehicle mile travel. I think Mr. 
Blumenauer is considering legislation along these lines that 
might also be helpful at a national level. If we start building 
in requirements that we reduce emissions through better 
planning, lower-carbon trucks and through the goods industry, 
then I think, you know, we can see some progress.
    Ms. Speier. Let me just applaud that because it reminds me 
a lot of the housing element requirements in California that by 
virtue of requiring the housing element and having a percentage 
of low-income housing, communities were forced to develop those 
percentages. So it sounds like a good plan, Congressman.
    Mr. Blumenauer [presiding]. We will talk. Thank you.
    Mr. Inslee.
    Mr. Inslee. Thank you.
    I am just wondering going forward, looking at our 
transportation funding, you know, we have a transportation bill 
coming up, we have all these great ideas for giving Americans 
multiple transportation choices, which I really think this is 
all about between single-occupancy cars, bikes, buses, trains, 
sidewalks, you name it. How we should think about the division 
of our financial resources between those? Has this group 
thought about what the target ought to be for modes that have 
the capacity to be safe, reliable and reduce, you know, our 
impact on the environment? Should there be a target in that 
regard regarding the disposition of our resources and how would 
that target relate to where we are right now?
    Mr. Clarke. I can't say that I have run this by my 
colleagues on the panel here but speaking for the American 
Bikes Coalition, which is a coalition of the national bicycling 
organizations, the numbers that we are commonly using are 
currently 13 percent of fatalities on our Nation's roads are 
bicyclists and pedestrians, about 10 percent of trips are made 
by foot and by bicycle, and we get currently between 1 and on a 
good day 1\1/2\ percent of federal transportation funds being 
spent on those modes, significantly less if you look just at 
the safety funds. So there is clearly an imbalance that we 
would like to see rectified. Our goal that we would like to see 
in this reauthorization is to find a mechanism to double the 
percentage of trips that are made by foot and by bike to get us 
up to the levels enjoyed by many of our economic competitors 
around the world and to do that through everything from school 
programs which get people thinking the right way at an early 
age right the way through complete streets policies, which are 
supported by AARP and the Realtors and a variety of other 
groups along those lines. So that is the kind of balance that 
we would like to see more in the next transportation bill.
    Mr. Zimmerman. When you consider that something like 60 
percent of transportation emissions are generated by passenger 
vehicles and that is about a fifth of the total of the U.S. 
greenhouse, at least CO<INF>2</INF> emissions, as I understand 
it, I think there is an argument for targeting other modes and 
trying to promote them but I would say it is not only a matter 
of funding those but of how policy overall winds up 
incentivizing what you do so for instance, you know, when you 
have tax policy that is promoting free parking, that is a 
factor, but you also have to consider how you give out whatever 
money you give out so that if you had a policy that was 
rewarding the kinds of investments not only in the modes you 
want but also rewarding the supportive policies that, for 
instance, we administer at the local level, I mean, most land-
use policy is local policy. Some states, you know, govern it 
but mostly it is the most local thing done, and yet what you 
need to do if you want to get a project funded whether it is a 
road, transportation project or any of it, it doesn't really 
depend on a whole lot of that and the practices in the past 
have tended to be independent of that. In fact, they have 
tended to promote exactly the wrong kind of thing. So, you 
know, if somehow you were rewarded for the fact that you are 
investing in existing commercial areas that you have land-use 
policies that promote compact development and transit 
orientation not just transit adjacency, rather than rewarding 
people because they are going faster over longer distances 
solely, I think that that can have a really big impact.
    Mr. Inslee. So let me start at the beginning. If you don't 
have a goal, you don't get there. I guess the question is, 
should we have a goal for our transportation policy and 
appropriation coming up here this year of a given----
    Mr. Zimmerman. I would say yes.
    Mr. Clarke. Yes.
    Mr. Inslee. Everybody is saying yes. Let me ask the 
question first. It is a great panel. Of a given CO<INF>2</INF> 
emissions per mile traveled in America, everybody is saying yes 
to that, I assume. Is that----
    Mr. Zimmerman. I would say yes but my only concern would be 
when you try to set the goal nationally, you have to set it in 
a way that doesn't wind up being too low but on the other hand 
takes account of those areas that have already done some of the 
right things and how do you not punish them for having done so. 
I don't think it is an easy thing or a simple thing to do but 
with that qualification, then I think, yeah, you should set 
targets.
    Mr. Inslee. A quick question. I have been talking to the 
Better Place folks about establishing an electric 
infrastructure for charging electric cars. I just got a 
BlackBerry this morning about Spain moving in a very serious 
way to provide a public infrastructure for charging electric 
cars. We are now looking at some permitting issues up in the 
State of Washington to allow that to move forward. Some people 
have expressed concern about that ending up being a monopoly, 
one company if they come in and provided all this 
infrastructure. I think that can be handled but I just wonder 
if you have any insights on how we provide this electric 
charging infrastructure.
    Mr. Boesel. That is a very timely question. I would say 
first of all that I am very excited about the number of 
electric vehicles or plug-in vehicles coming to the market. 
There are plug-in hybrids. There are pure electric vehicles 
that are coming. I think one of the real beauties of those cars 
is that people will be able to recharge at their home and 
people are finally looking at these cars as more urban city 
cars and not trying to make them do the exact same thing that 
your gasoline car could do. I think to a certain extent, the 
initial rollout of these vehicles will not be dependent on 
having a public infrastructure, and I think surveys show that 
people would love to be able to charge at home. But I do think 
that as we roll out this infrastructure, it is very important 
that there be a consensus within the industry, within 
utilities, car manufacturers, that we don't get into the beta 
versus VHS kind of debate and we did that in the 1990s and we 
ended up with two different types of charging plugs and now we 
still have those out there and those same plugs are not 
relevant to the next generation of plug-in vehicles. The good 
news is that the wiring is there.
    Mr. Inslee. With the chairman's permission, just one quick 
question. Should we try to strive for some uniformity in a 
charging system?
    Mr. Boesel. Yes, we definitely should, and I think that is 
a great role for government to really strive industry and get 
people to cooperate and talk to each other.
    Mr. Inslee. Thank you.
    Mr. Blumenauer. Ms. Herseth Sandlin.
    Ms. Herseth Sandlin. Thank you. I thank the witnesses for 
their testimony.
    I represent rural America. I represent South Dakota, and I 
want to make sure that as we move toward a greener 
transportation system that our needs and opportunities aren't 
left out of the discussion. Our transit systems certainly may 
not have developed quite as far as urban transit systems to 
date but there are certainly challenges to overcome but 
opportunities as well. The miles that we put on vans and buses 
as most transit fleets offer services hundreds of miles away 
from base communities is something that needs to be addressed. 
Most towns in South Dakota have to compete with the cities for 
the incentive grants offered by the Federal Transit 
Administration and Federal Highway Administration to help 
upgrade to greener and more-fuel-efficient vehicles. But many 
folks that I hear from in South Dakota are excited to take part 
in the new green transit system and are certainly doing their 
part to reduce emissions, utilize homegrown clean biofuels and 
become more energy efficient. Moreover, many of our towns face 
the unique opportunity to be able to build up green fuel-
efficient fleets from the very beginning. For example, River 
Cities Transit in the State's capital city of Pierre is at the 
forefront of our State in utilizing E85 vehicles and other 
fuel-efficient vans and buses. They are also working to 
purchase the first hybrid van in the State to be able to used 
for public transit and they are excited to see if hybrid 
vehicles are a workable option in our State. Now, River Cities 
Transit is also working closely with many of the nine sovereign 
tribes in South Dakota to help them build up their fleets with 
similar vehicles and encouraging their leaders to make smart 
decisions now that will save both money and reduce emissions.
    So I guess I am wondering to what extent your organizations 
or other organizations that you are familiar with have been 
reaching out to rural communities to share with them strategies 
for developing green transportation systems as well as anything 
that you are aware of in terms of organizations or initiatives 
to reach out to Native American tribes.
    Mr. Varga. I can talk a little bit about that. The issue 
here is that, let us look at Europe. In Europe, you have rural 
communities, you have urban communities, you have an integrated 
transportation system, and using alternative fueled vehicles in 
rural areas is really to an advantage but they have to connect 
to someplace so they can go someplace so they don't have to 
drive across the country to get somewhere. What we don't have 
is an integrated transportation system in this country that 
allows people to have choice. You take a smaller trip with a 
van or a bus or a car that is alternative fueled to some train 
station so you can get to a place, so you can go to the city 
and move around really easily. You really have to focus on 
investment across the country that gets you there. In rural 
areas, true, there has to be some increased focus of providing 
that support for transit to do that, and then in the cities you 
have to make sure that there is more fixed guideway systems in 
there so when you get there you can move around so you are not 
stuck thinking I am leaving Pierre, I have to use my car to get 
to Chicago.
    Ms. Herseth Sandlin. I appreciate your points, and South 
Dakota does not have Amtrak service.
    Mr. Boesel. I just want to say, Congresswoman, that one of 
the programs we are really working hard to develop is a fuel 
called biomethane which is taken from biomass and it can be the 
Swedes--I am not sure if you were here earlier when I mentioned 
it but the Swedes are developing this fuel. It is a renewable 
form of methane just like the natural gas that we use today, 
and I think there is a tremendous opportunity for rural 
communities, particularly agricultural industries, to take 
advantage of that as a local fuel source. We would be very 
interested in working with the groups in your State to help 
develop that fuel.
    Mr. Clarke. If I may, four very quick points. Number one, 
one of our most favorite bicycle-friendly communities in the 
United States is the Tucson area, and when they applied for a 
designation as a bicycle-friendly community in 2006, they got a 
gold designation, and included in their application, two Indian 
Nations, the city, the county, the State DOT, the regional NPO, 
and it was a truly regional application and was one of the 
first times that that really had happened and all those 
different parties had worked together to put together a program 
like that. So we are beginning to be able to say yes, we can 
answer that question in the affirmative.
    The second thing I would say is that in many rural 
communities they are an ideal size and setup, perhaps often 
with the exception of the U.S. highway or State highway that 
might run through the middle of them and be a significant 
barrier. They are an ideal size and makeup for bicycling and 
walking and we should not forget rural communities and small 
towns in the application of enhancement and other funds to make 
them more bicycle friendly and there are perfect examples like 
the Mickelson Trail which are not only great transportation 
corridors but a huge recreation opportunity, and studies from 
the province of Quebec to the Outer Banks of North Carolina to 
the city of Portland show enormous economic impact of cycling 
on a local economy and the national economy and some of that it 
is in my written testimony.
    Ms. Herseth Sandlin. Thank you, Mr. Clarke, and just for 
the record, the Mickelson Trail is through the Black Hills of 
South Dakota and very popular recreation, named after our late 
Governor George Mickelson of South Dakota.
    Mr. Blumenauer. I deeply appreciate your bringing back to 
the notion of how we are going to meet the needs of all of 
America. I have enjoyed our conversations about rural and small 
town and the point you raise is one that I hope we can pursue 
with the organizations that are represented here about scale of 
community that we don't count some people out just because 
there are artificial formulas or constructs where they don't 
qualify and the other thing is just the capacity that there are 
many communities that you represent where there may not be the 
institutional support to be able to navigate these things and 
being able to make them friendly is something and I appreciate 
your continually bringing us back to it, dramatic lack of 
attention to Native Americans where transit is awkward, but if 
you don't drive you are in trouble, and the application of 
technology, and I look forward to continuing that with you and 
subsequent efforts because I think this is a missing ingredient 
that doesn't get the attention and I appreciate your laser-like 
focus.
    Ms. Herseth Sandlin. Well, thank you, Mr. Blumenauer. I too 
appreciate your genuine interest in addressing the 
infrastructure needs of communities large and small in every 
region of the country, particularly throughout the Great Plains 
region as we have discussed, both in farming and ranching 
communities and Native American communities, and not just 
developing new infrastructure but maintaining existing 
infrastructure with this focus on transportation today. I 
appreciate your sentiment. Thank you.
    Mr. Blumenauer. Thank you.
    Our chairman has a tradition of giving each witness 49 
seconds to summarize their thoughts, if there is something they 
want to punctuate or something that was left off, and we just 
give each of you a quick minute to wrap up as you see fit. Mr. 
Varga.
    Mr. Varga. Thank you. One of the things that has not been 
mentioned much is streamlining the whole federal process of 
getting transportation dollars. It has taken us 9 years to 
build a BRT project that is $40 million in cost. How civilized 
is that? The other thing is, I think that land-use patterns 
must be incentivized and tied to public transportation, tied to 
all these forms of transportation. It is only use those energy-
efficient land-use patterns tied to transportation that is 
going to change what we are trying to achieve here, so thank 
you very much.
    Mr. Blumenauer. Thank you.
    Mr. Clarke.
    Mr. Clarke. I would go back to the one statistic that I 
think is perhaps the most surprising, which even I have to keep 
checking to make sure I am not making up, and that is that 40 
percent of all the trips in U.S. metropolitan areas are 2 miles 
or less. Those are the trips that we can have some impact over, 
and I would close by saying that you may recall that in 1985 
the World Bank famously issued a report on transport in China 
that failed to mention the world ``bicycle.'' I would hate to 
come back 25 years from now and look at climate change 
legislation or a transportation bill passed in this Congress 
that fails to really adequately address bicycling and walking 
and transit.
    Mr. Blumenauer. I think you are safe. Mr. Oberstar will 
make sure of that.
    Mr. Zimmerman.
    Mr. Zimmerman. Thank you. I would just like to mention 
quickly three things, the first what Mr. Varga said, tying 
transportation to land-use policies I think is key, funding the 
right things that right now only about 20 percent, I think, of 
federal funding is transit, and making it easier to get that is 
key, and then adjusting the other policies that, you know, 
don't really make it possible to do. It is not only how hard it 
is to get the grant but it is also what is rewarded and taking 
into account things like housing costs and how they relate to 
the overall benefits and that kind of thing will make the 
biggest impact and ultimately allowing federal policy to 
promote the kind of behavior that you are looking to see at the 
local level that will really have an impact in this area.
    Mr. Blumenauer. Super. Thank you.
    Mr. Boesel.
    Mr. Boesel. Mr. Chairman, three last comments. One is that 
I want to just emphasize that I think transit has been an early 
adopter of clean, low-carbon, heavy-duty vehicle technology and 
it often gets tested out and proved there in transit because of 
the public funding of transit. Then it gets adopted later on by 
the trucking industry and then later on by the commercial 
construction equipment, and particularly as we look at greening 
construction, highway construction, building construction, 
there is a real opportunity to develop a lower-carbon off-road 
vehicles, construction equipment to do that but it starts I 
think with sort of a bus program, believe it or not. Secondly 
is under the next T bill we would love to see much like we have 
had the safe routes to school a low-carbon route to market for 
trucks, a demonstration program where we take a corridor and we 
say this is going to be a demonstration low-carbon goods moving 
corridor. And then lastly is, I think there is a huge 
opportunity if we do invest in this sector to be a world leader 
in terms of heavy-duty green technology. We can be exporting 
this product. In many countries, the biggest, fastest-growing 
countries, 50 percent of their vehicle population are 
commercial trucks and buses. They don't have the kind of per 
capita vehicle ownership that we have in this country. So if we 
develop this product we get it down to a decent price, it can 
become an export product and can be a global solution.
    Mr. Blumenauer. Super. Thank you very much for helping us 
build this record.
    We are going to move to our second panel here. We are going 
to have people dropping in and out, and as you have noticed, 
this is broadcast, so there are people that are actually 
monitoring, so we want to just drive ahead and not wait for the 
chairman, so we will ask our second panel to come forward 
because the second part of the equation that we are concerned 
with deals with how we put these pieces together. There are so 
many elements that are involved with our built environment and 
the infrastructure that are profoundly affected by the carbon 
input of how we build it, how we manage it, what we build it 
from. We are pleased to have on our second panel 
representatives that speak to construction materials, people 
who can talk about how we actually--the practices in effecting 
the building, and last but not least, some of the equipment 
that is used by the materials and the people who build it.
    Our first witness will be Erika Guerra, a manager of 
government affairs and corporate social responsibility at 
Holcim International, a leading global manufacturer of 
construction materials. She is here today from Waltham, 
Massachusetts, the chairman's home district, and has worked on 
corporate sustainable development strategies and worked 
throughout North and South America. We welcome you here today 
and invite you to proceed as you are ready.

 STATEMENTS OF ERIKA GUERRA, MANAGER OF GOVERNMENT AFFAIRS AND 
CORPORATE SOCIAL RESPONSIBILITY, HOLCIM (US) INC.; DON WEAVER, 
 HIGHWAY DIVISION CHAIRMAN, THE ASSOCIATED GENERAL CONTRACTORS 
 OF AMERICA; AND DOMENIC RUCCOLO, SENIOR VICE PRESIDENT, SALES 
  AND MARKETING, JOHN DEERE CONSTRUCTION AND FORESTRY COMPANY

                   STATEMENT OF ERIKA GUERRA

    Ms. Guerra. Well, thank you and I guess I will have a 
little bit of a different accent from Massachusetts, so bear 
with me with that, please.
    Mr. Blumenauer. We often need an interpreter with our 
chairman.
    Ms. Guerra. Okay. So good morning and thank you for having 
me here. It is a privilege to appear before you today. As you 
said, I am responsible for government affairs and corporate 
social responsibility of Holcim. We are one of the largest 
producers of cement, and that is a substantial ingredient in 
concrete. I want to highlight the need for increasing the use 
of concrete to reduce the overall greenhouse gas emissions.
    Innovation is key to reducing CO<INF>2</INF>. Holcim 
invests heavily in research and development with a focus on 
optimizing our processes and creating products that provide 
better performance with fewer natural resources. Holcim is 
committed to reduce its net CO<INF>2</INF> emission per ton of 
cement. We have invested more than $2 billion over the last 5 
years upgrading and expanding our facilities in the United 
States. I commend you for your leadership in promoting 
innovative solutions to reduce environment impact of 
infrastructure construction.
    Headquartered in Waltham, Massachusetts, we are the leader 
in the U.S. cement industry, serving 44 States. For the last 3 
consecutive years we have been recognized as the leader of the 
industry by the Dow Jones Sustainability Index. Holcim Limited 
is a global company with operations in 70 countries and we are 
engaged in the European emission trading system. We are working 
with the subcommittee as part of the Energy Intensive 
Manufacturer Group that appeared before this committee 
yesterday at yesterday's hearing.
    Concrete is the foundation of any modern society and it is 
the second most used commodity in the world after water. Cement 
is a critical component of concrete and when combined with 
water and aggregate becomes the glue that binds the whole 
mixture together. Cement gives concrete its strength and 
durability. Nearly 50 percent of our product has an end use in 
the public sector in roads, airports, bridges, hospitals and 
schools. Cement is an energy-intensive material to manufacture. 
However, it only constitutes approximately 15 percent of 
concrete's volume. The first step in the manufacturing process 
of cement is heating the limestone at extremely high 
temperatures up to 2,000 degrees, which produces what we call 
clinker, and I am introducing a new term here. This is the 
energy-intensive part of manufacturing cement where 90 percent 
of our greenhouse gases are generated. In very general terms, 
there is a ton of CO<INF>2</INF> emitted for nearly every ton 
of cement produced. However, 50 percent of those emissions are 
the result of a chemical reaction in the process which are 
commonly referred to as process emissions. Another 40 percent 
are the result of the fuel combustion to maintain those high 
temperatures, and the remaining 10 percent is attributed to 
electricity use and transport. As a result, this immense sector 
accounts for 5 percent of global CO<INF>2</INF> emissions and 
it is forecast that the demand for the product will increase 
over the next 30 years. It grows with the population.
    Holcim has identified three primary areas of opportunity to 
drive the reduction of greenhouse gases in cement production. 
First, capital investment, technology and process innovation 
can reduce the energy consumption of our facilities. Second, 
the use of waste-derived fuels like scrap tires, like biomass, 
like plastics, can reduce the CO<INF>2</INF> intensity by 
replacing fossil fuels like coal. And third, the use of other 
industries' byproducts as supplemental cementitious materials, 
second term, SCMs, can reduce the clinker content in cement. I 
would like to focus on this last opportunity.
    As I explained, the production of clinker is a major source 
of CO<INF>2</INF> emissions from cement manufacturing. We 
should look for ways to reduce the amount of clinker in the 
mix. Unfortunately, we lag behind many countries by requiring 
inflexible recipes for cement instead of performance-based 
standards that adapt the needs of a project like in the rest of 
the world. Many projects can be done with a lower carbon 
footprint if performance-based standards are accepted. However, 
acceptance does not necessarily translate into use, especially 
when it comes to infrastructure projects.
    Holcim encourages the development of a unified performance-
based specification for cement with support from ASTM 
International that ensures that cement produced in the United 
States meets all technical requirements while affording 
producers the opportunity to innovate and develop new products. 
We believe that in order to be effective in the reduction of 
greenhouse gas emissions through the consumption of blended 
cements, national acceptance of performance-based standards and 
a preference for the use of these products needs to be led by 
federal and State governments.
    I sincerely thank you for your time and I again appreciate 
this opportunity to speak about the linkages between 
infrastructure development and global challenges of climate 
change.
    [Statement of Ms. Guerra follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Blumenauer. Thank you. We appreciate your adding your 
voice. It is something that I don't think is appreciated in 
this broader conversation, and I appreciate your being part of 
our hearing today.
    Mr. Weaver, what do you do with all this cement?
    Mr. Weaver. We are concrete pavers so that----
    Mr. Blumenauer. I guess I should introduce Mr. Weaver as 
the Highway Division chairman at Associated General 
Contractors. As we all know, AGC is a leading advocate for 
infrastructure investment at the federal level and I would say 
at the State and local level as well. Mr. Weaver is vice 
president of Weaver-Bailey Contractors of El Paso, Arkansas, 
and we deeply appreciate your joining us today and the 
leadership that AGC has been exhibiting on so many of these 
interrelated problems.

                    STATEMENT OF DON WEAVER

    Mr. Weaver. Thank you, and I do follow Scott Williams from 
your district. He was chairman last year. And I will have 
another accent that you haven't heard today. I will skip my 
first paragraph.
    AGC is the oldest construction association in the United 
States representing contractors that build all forms of 
infrastructure. Construction is the delivery system for a 
cleaner, healthier and safer environment. Studies show that 
improving our highway transportation infrastructure to allow 
vehicles to move freely through existing bottlenecks will 
significantly reduce greenhouse gas emissions. Also, increasing 
transit ridership, which we have transit members that build 
transit, by improving existing systems and constructing new 
ones in congested urban areas will also have positive impacts 
on reducing greenhouse gas emissions.
    As important as providing these needed infrastructure 
improvements is the way these improvements are made. Our 
industry has a long history of developing construction 
techniques and practices that enhance the environment. The 
federal government can assist in these practices by offering 
appropriate incentives but it is important that we learn from 
the lessons of the past and not try to mandate one-size-fits-
all solutions. In many cases recycling and reuse of 
construction debris as cost-effective and would decrease the 
amount of waste sent to landfills, may reduce transportation 
costs, lower energy use and thereby reducing greenhouse gas 
emissions. My own company, Weaver-Bailey Contractors, on three 
jobs in the urban Little Rock area recycled over 500,000 square 
yards of original interstate concrete pavement into 276,000 
tons of base course that was put back underneath the highways 
and reused. We estimate that that saved 18,400 loads of virgin 
materials that would have been hauled to the jobsite from a 
quarry up to 30 miles away, which caused a savings of 100,000 
gallons of diesel fuel and it lowered the emissions caused by 
the job. Similarly, recycled asphalt pavement allows 
contractors to add milled asphalt to new mixes, lowering the 
asphalt content of the new material, which saves oil, lowers 
cost and reduces greenhouse gas emissions. Every ton of 
recycled asphalt from construction which uses the millings that 
you see the milling machine results in elimination of .03 tons 
of CO<INF>2</INF> emissions. Some States are resistant to using 
wrap and AGC believes incentives would help these States 
overcome their reluctance.
    Soil modification is another green practice that we use in 
the highway business. In many construction situations, onsite 
soils are not acceptable as sub-base materials. This requires 
the material to be dug up and replaced so instead of removing 
unsuitable material and putting it somewhere and digging up new 
suitable material and replacing it, which causes scars on the 
land, a variety of additives can be used--cement, lime, fly ash 
and other chemicals--and this saves fuel and reduces the 
emissions by the need to haul things off and haul things back 
in and it also helps the traveling public with the decrease in 
traffic.
    It is important to note the construction industry is not in 
itself a significant source of greenhouse gas. According to EPA 
estimates, equipment used in construction generates only .86 
percent of total U.S. greenhouse gas emissions due to the 
combustion of fossil fuel. AGC opposes government mandates to 
modify equipment already in use or to replace such equipment 
via regulation or contractual requirement. Such retroactive 
requirements place a financial burden of a largely public 
benefit exclusively on the private contractor. They also have 
the potential to render a company's fleet prematurely obsolete 
and wipe out its net worth, which is how we are able to find 
jobs. However, improvements in greenhouse gas emissions could 
be achieved by replacing older equipment with newer and more 
efficient equipment. AGC recommends the creation of an 
investment tax credit to encourage contractors to replace older 
equipment with new models. Newer equipment is extremely more 
energy efficient, it is operator friendly and safer and the new 
engines are designed to have a lot lower emissions of 
particulate matter and NO<INF>X</INF> Reducing particulate 
matter and NO<INF>X</INF> and black carbon can have a positive 
impact on global warming.
    In addition to the environmental benefits from replacing 
old equipment, there would be an economic benefit as well. With 
the downturn in the construction market, contractors are 
purchasing less equipment both for the current workload and the 
future because our future market is uncertain. U.S. equipment 
manufacturers have been forced to lay off a significant number 
of workers because of the decrease of new equipment purchases. 
While the recently enacted stimulus program provides 
significant infrastructure investment, it does not create long-
term market opportunities. Until we have a full economic 
recovery and we see what the new highway bill will be, a tax 
credit would offer an incentive for contractors right now to 
buy new equipment.
    In conclusion, AGC believes that the efforts to further the 
use of construction techniques and practices that have a 
positive environmental impact should be encouraged. AGC 
cautions against creating mandates that attempt to impose 
specific construction practices. AGC believes that a 
partnership approach will better results for achieving the 
national goals. Opportunities will be available when surface 
transportation reauthorization legislation is considered later 
this year. AGC is evaluating proposals thus far including the 
CLEAN TEA Act, and we look forward to working with this 
committee in the future in trying to enhance our transportation 
system and our environment. Thank you.
    [Statement of Mr. Weaver follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Blumenauer. Super. Thank you.
    Our final witness is Mr. Domenic Ruccolo, senior vice 
president at John Deere, the green equipment that our friend, 
Mr. Salazar mentioned. He is responsible for sales and 
marketing in the Worldwide Construction and Forestry Division. 
He has previously worked in wholesale finance and directed the 
Hitachi Construction and Mining Division. John Deere is a 
leading provider of products and services for agriculture and 
forestry, and we deeply appreciate your joining us today and 
look forward to your testimony when you are ready.

                  STATEMENT OF DOMENIC RUCCOLO

    Mr. Ruccolo. Thank you very much. On behalf of John Deere, 
I would like to thank the distinguished members of the 
committee for the opportunity to testify today on constructing 
a green transportation policy.
    I also would like to go on the record for thanking Mr. 
Salazar for his kind comments about our products and company as 
well.
    For 171 years, John Deere has enabled human flourishing by 
offering solutions to those who produce food, fiber and food, 
beautify and protect our environment and build and maintain our 
homes and critical infrastructure. During this period, Deere 
has invented, manufactured and sold worldwide hundreds of 
models of construction equipment as well as the engines 
powering them. Deere created these tools with a consistent 
purpose: improving and efficiency. Just as productivity and 
efficiency drive Deere's product innovation, we suggest that it 
should also drive our Nation's infrastructure policy. America's 
infrastructure directly affects economic, social and 
environmental well-being. Every day we all rely upon our roads, 
bridges, transit, rail and other infrastructure to survive and 
thrive. Despite our dependence on it, the Nation has taken 
infrastructure for granted and permitted it to fall into 
disrepair without concern for its sustainability.
    The Nation's current infrastructure has suffered from the 
absence of a national vision premised on both robust funding as 
well as the pursuit of the most productive and effective 
projects. Actions in recent weeks reflect Congressional 
leadership in creating this vision for infrastructure. It is 
clear you appreciate something as significant as our 
infrastructure requires significant funding. We also must make 
sure this and future money is spent wisely and to do so we need 
to incorporate principles of environmental sustainability into 
our infrastructure policy.
    John Deere believes one way to make infrastructure projects 
greener is through the use of productive, efficient 
construction equipment. The construction equipment marketplace 
has consistently demanded machine productivity and efficiency 
because fuel consumption is a primary operating cost for our 
customers. In response, John Deere and other construction 
equipment manufacturers expend substantial resources to ensure 
their customers can get the most work out of every gallon of 
fuel used. The federal government can take many steps to 
support further efforts in the construction equipment industry 
to improve equipment productivity and efficiency and reduce 
environmental impacts. Collaboration between the public and 
private sectors is needed to investigate and fund the research 
and development of new standards and technologies to further 
improve equipment productivity and efficiency. By recognizing 
the essential road, non-road equipment will play in 
transforming the transportation and other sectors of the 
economy to achieve ambitious and necessary greenhouse gas 
reductions, we can see that appropriate investment by the 
federal government in the non-road technologies would create 
substantial environmental returns. For example, creating modal 
shifts from road transport to rail and public transportation 
systems is one way to help offset the growth in greenhouse gas 
emissions.
    We strongly recommend that the federal government also take 
steps to ensure construction equipment owners can more easily 
purchase new technologies that excel in productivity, 
efficiency and environmental sustainability and thereby build 
infrastructure to the demand that the Nation demands. A single 
piece of large construction equipment can cost several hundreds 
of thousands of dollars. The development of tax incentives and 
funding specific to the purchase of new equipment will remove 
uncertainty for equipment owners who today face a risk that 
inconsistent environmental and other regulations created by 
States and locally may make equipment obsolete well before the 
end of its useful life. On a larger scale, the federal 
government can support greener construction practices and 
techniques by incorporating environmental considerations into 
infrastructure planning and funding decisions.
    As a member of the United States Climate Action 
Partnership, John Deere supports incorporating greenhouse gas 
measurement and accounting in transportation, infrastructure 
funding and planning. Incorporating such considerations, 
however, needs to be coupled with an improvement to the 
infrastructure project development and approval process. 
Transportation projects often become bogged down for years in 
inefficient and redundant processes, thereby increasing the 
project costs and undermining the ability to improve the 
environmental impact on our transportation system. An efficient 
transportation system also provides many indirect benefits. For 
example, improving our infrastructure, we will improve the 
environmental sustainability of many green industries critical 
to rural America including renewable energy specifically.
    I would like to especially thank committee member Herseth 
Sandlin for her support of woody biomass energy. Woody biomass 
is a prime example of rural renewable resources that can help 
meet our energy needs, address the challenges of climate 
change, revitalize our rural communities and improve the health 
of forests. Congress is in a position to unlock the enormous 
potential of woody biomass by supporting not only the creation 
of a market for it but also the creation of an infrastructure 
system that enables its ready and cost-effective 
transportation.
    In concluding my remarks, I would be remiss if I failed to 
mention another critical benefit Congress should consider in 
its infrastructure policy debate and that is job creation. John 
Deere witnesses firsthand the dramatic impact of the current 
financial crisis on its workforce, dealers and customers. The 
financial crisis has hit the construction industry very hard 
with 21.4 percent unemployment and over 2 million construction 
workers without jobs. The impact of the financial crisis 
extends well beyond the construction industry to those skilled 
and hardworking Americans who manufacture our vital 
construction equipment. John Deere and others in the 
construction equipment industry have been forced to lay off 
many employees as a result of the plunging demand for 
construction equipment caused by the financial crisis.
    I want to thank you again for the opportunity to testify 
and I am happy to answer any questions that the committee may 
have.
    [The prepared statement of Mr. Ruccolo follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Blumenauer. Super. Thank you very much.
    Ms. Herseth Sandlin.
    Ms. Herseth Sandlin. Thank you, Mr. Blumenauer.
    Mr. Ruccolo, thank you for your testimony. I thank the 
other witnesses as well but my questions go to you as it 
relates to the Renewable Biofuels Facilitation Act. I 
appreciate John Deere's support of this legislation that I have 
reintroduced with Mr. Greg Walden of Oregon. We believe that a 
key to fulfilling the renewable fuels standard that we passed 
in 2007 is to ensure that cellulosic biofuels can be produced 
from the greatest possible diversity of feedstocks in 
communities across the Nation. This particularly affects any 
region of the country with significant tracts of forestland, as 
you indicated, including the Midwest, the Northwest, the 
Northeast and the South.
    Now, I know your company has developed specialized 
equipment to collect woody biomass in forests and I hope that 
you can share more about that with the committee, but I also 
know that the company has been very active in South Dakota in 
testing new farm machinery that is going to make it easier to 
gather for producers, agricultural producers to gather and 
process corn stover and other farm byproducts that can be used 
for cellulosic ethanol production. So if you could expand on 
those initiatives and elaborate on the necessity of these 
projects if we are going to have greener fuel sources in the 
future, and if you could also speak to some of the challenges 
you are currently facing as you assist efforts to expand the 
diversity of feedstocks for biofuels.
    Mr. Ruccolo. Certainly I will try to hit on all of those 
things. There were a number of topics in your question and I 
will be glad to address that.
    Relative to woody biomass, yes, we do have a product 
essentially referred to as an energy bundler, if you will. It 
goes about collecting residue off the forest floors, if you 
will, either after a logging operation or just that it 
naturally exists, and actually promotes the health of the 
forest, if you will, also reduces certain risks, as you know, 
of forest fires and essentially takes this residue and 
compresses it in a way that creates kind of bundles of material 
that can be used in cogen plants and so on as an alternative 
form of energy and certainly one that is renewable. So on the 
forestry front, that is the purpose of the wood biomass in 
particular.
    In terms of biomass that comes from either corn stover or 
other forms of agricultural products, we have several projects 
underway there in terms of really developing the technologies 
associated with turning agricultural residue, if you will, into 
other forms of energy, be it fuels or otherwise, and being with 
the construction and forestry division and not the expert 
necessarily on agricultural biomass efforts but would certainly 
if there are more specific questions more than glad to take 
those questions back and get back to the committee with those 
specific answers.
    Ms. Herseth Sandlin. Thank you. And also for the record, 
just as Mr. Salazar mentioned his familiarity with John Deere's 
equipment, I too spent many hours in my youth on the green 
machines there on the family farm. Thank you for your 
testimony. Thank you to our entire panel.
    Thank you, Mr. Chairman.
    Mr. Blumenauer. Well, we are reaching the wrap-up here but 
I would like to pose to each of our panelists an opportunity to 
maybe drill down for a moment about the incentives, the 
government standards that were referenced and opportunities to 
change the process. Part of what we have heard from our 
witnesses so far is a little frustration at a time when it can 
get a little complex. Mr. Zimmerman referenced his frustration 
with not being able to actually get a project through the 
federal process, which ends up providing delay, driving up 
costs. Mr. Weaver, I think you referenced it. I am curious if 
you would like to just start first talking about what the 
government specs should be, how the federal government--we are 
dealing with reauthorization now, the Surface Transportation 
Act, which expires in 6 months and I think will be reauthorized 
by this Congress. If you want to touch on how specifically you 
think we can help by driving some different standards and 
opportunities not just for pilot projects but maybe something 
that is performance based that would enable us to make it 
easier to use the new processes that you reference and to make 
it easier to not have to jump through hurdles to be able to 
incent some of the State or local governments to take some of 
the innovations not just to be able to recycle but you are 
saving landfill and energy. Would each panelist make a brief 
comment about the specification issue?
    Ms. Guerra. Thank you for the question, and it is certainly 
a complex issue that this legislation will be addressing on 
greenhouse gases and I think one of the first points is to look 
at this legislation in a holistic way and really trying to link 
in our case, you know, the intensity of cement and producing 
greenhouse gases but with the benefits of concrete as an 
efficient material when it comes to highway infrastructure.
    In terms of the specs, I think there is lot that 
government, federal government can do. There are specs for 
blended cements or performance-based standards. The problem is 
that they are not utilized across the board. There is only a 
handful of States that recommend on their projects these 
performance-based standards so I think there is an opportunity 
to mitigate the impact of greenhouse gases by the usage of 
blended cements if it is a federal mandate for performance-
based standards rather than just a recipe or a prescription of 
cement. We don't need the same strength on our driveways that 
we need on our highways and that will drive a lot of innovation 
on our industry and the entire sector.
    Mr. Blumenauer. Super.
    Mr. Weaver.
    Mr. Weaver. Yes. I would like to see the Department of 
Transportation coordinate across all of their entities, federal 
transit, federal highways, FAA, their specifications to be a 
little more uniform on the use of recycled material and locally 
available material rather than specking some exotic things that 
has to be transported great distances like the FAA specs and 
the federal highway specs are totally different. According to 
her, the minimal cement content, the end result spec, let us do 
our own mix designs on asphalt, concrete. We got to guarantee 
it. Let us come up with what we think will work and prove it 
rather than the State or the federal agency telling us what we 
have to use.
    Mr. Blumenauer. But making it performance based. As long as 
it does the job----
    Mr. Weaver. Yes. I would call it end result rather than 
performance, but end result--if they want 3,500-pound concrete 
that is going to last 50 years, instead of telling us how much 
cement to put in it, we can substitute maybe some rock or some 
sand, some locally available materials and make it denser and 
better than what they specify.
    Mr. Blumenauer. Thank you.
    Mr. Ruccolo. Getting back to the part of your question in 
terms of maybe some of the frustration you sensed here, 
especially in terms of the creation of incentives or some of 
the inconsistencies in regulations from State to State or 
municipality to municipality when it comes to some of the 
requirements associated with equipment, I think one of the 
things is that there has been some consistency in terms of what 
the EPA has come out with where it kind of gets extrapolated, 
if you will, at the State or local level I think is what causes 
a lot of the uncertainty that Mr. Weaver expressed as well in 
his opening statement and I think that into itself, finding 
some mechanisms that do incentivize construction contractors, 
if you will, construction equipment owners to acquire new 
pieces that will move the needle, if you will, relative to 
greenhouse gas and emissions and remove some of the fear in 
terms of obsolescence that a lot of these new regulations are 
causing I think is one that would be a great step forward 
moving forward. And relative to the highway bill in particular 
and the whole topic of infrastructure and where do we take the 
infrastructure going forward for the Nation is certainly one 
that is complex and I think the previous panel hit on a few 
issues of where it has to be balanced. The infrastructure 
requirements in rural America are certainly different than they 
are in more-urban areas and it is going to be certainly a 
difficult task in terms of achieving a balanced approach that 
addresses and at least touches on the needs of all Americans.
    Mr. Blumenauer. Well, let me just express my deep 
appreciation for your patience here with us today and laying 
out a very strong case for an element that doesn't get 
appropriate attention in our climate change discussion. A ton 
of carbon being generated to create a ton of concrete is 
something that I think people find sort of staggering if they 
are not equipped with it, and I have been very impressed with 
what your industry has done to try and develop a greener, 
lighter carbon footprint and the construction industry, the 
leadership that is being exhibited at some of the State and 
local level is really remarkable. Your point about equipment 
manufacturing, which is essential to all of this, we have got a 
lot of equipment out there that actually does generate a 
tremendous amount of pollution and is inefficient, but as Mr. 
Weaver points out is an important part of the net worth of a 
lot of small- and medium-size businesspeople and they are going 
to need some help in the transition, and I think across the 
board you are uncovering a series of elements that are very, 
very important for us to consider in climate change, in 
reauthorization, in what is going to happen in the next round 
of economic stimulus because I don't think the economy is going 
to rebound quickly, and transportation finance. So you have 
really set the table here in an underappreciated part of the 
committee's work and I appreciate deeply your helping us build 
the record here today.
    I wonder if we haven't exhausted your time and patience if 
each of you might have a minute that you would like to offer up 
to just kind of punctuate one item as we conclude the hearing.
    Ms. Guerra. Yes, just to reiterate that the energy-
intensive part and the ton of CO<INF>2</INF> generated in 
cement, it can really be upset by all the benefits of concrete 
usage. Cement is an energy-intensive product but it is only 15 
percent of concrete, so there is a lot of opportunities to 
really work on both ways to reduce our carbon footprint.
    Mr. Blumenauer. Super.
    Mr. Weaver. I want to help Mr. John Deere. We think that an 
incentive, a tax incentive, whether it is targeted tax credit 
or whatever to replace new equipment. With the money flowing to 
the States now to rebuild the highways, a lot of contractors 
will take old equipment, as I did this winter--I rebuilt a 24-
year-old piece of equipment and I didn't bring it up to current 
standards but it is going to be good enough to last another 10 
or 12 years. Had there been some kind of incentive there, I 
wouldn't have rebuilt that, I would have went and bought a new 
one for $300,000. But this money is coming and I think it is 
time that people have a plan to replace their older equipment.
    You know, on a personal note, Little Rock has over 60 miles 
of bicycle pedestrian trails starting at the Clinton Library 
and the centerpiece of it is the longest pedestrian bicycle 
bridge in the United States and, excuse me, but it is named the 
Big Dam Bridge. It goes over a dam.
    Mr. Blumenauer. And Congressman Snyder is shamelessly 
promoting it, that along with your streetcar. We appreciate 
that. Thank you, Mr. Weaver.
    Mr. Ruccolo. I would like to conclude by just saying the 
topic of infrastructure spending is a tough one. It is one that 
is extremely expensive. We fully understand and appreciate 
that. We also I think all need to come to the realization the 
cost of our failure to do so has got a tremendous cost as well 
that maybe is not one that can be as easily defined, if you 
will.
    To Congressman Salazar's initial question about cap and 
trade just to share Deere's view on that, our view is we are 
very much in favor of a cap-and-trade system for the simple 
reasons that it allows for greater flexibility but I think will 
drive greater innovation and get us to the kinds of greenhouse 
gas levels that are going to be necessary going forward.
    Mr. Blumenauer. That is a great note on which to conclude 
the hearing.
    For the last 30 months I have been having conversations 
with a variety of stakeholders including representatives of 
each of your industries about how we should be rebuilding and 
renewing America, what sort of vision we have going forward, 
not just another transportation bill but the big picture that 
each of you have referenced, and I must say that meeting with 
250 stakeholders now over 2\1/2\ years and having a series of 
conferences around the country--we will be in Atlanta again 
this Monday--I am struck by the pockets of innovation that 
people aren't aware of, the flexibility that is not maybe 
necessarily associated with various sectors of the economy and 
the potential of bringing people together. You may have noticed 
that occasionally is a little controversial around there. There 
is a little controversy, a little debate but what we are seeing 
starting at the grass roots and as evidenced by your testimony 
today that there are broad areas of consensus that can bring 
people together to help solve economic problems, saving the 
planet and making the quality of life improved for all 
Americans, and we really appreciate your contributions for 
advancing that debate and look forward to working with you and 
the committee as we move forward. Thank you very much.
    We are adjourned.
    [Whereupon, at 11:28 a.m., the Committee was adjourned.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
